<html>
<title> - NOMINATIONS OF ROBERT W. HOLLEYMAN II AND CARY DOUGLAS PUGH</title>
<body><pre>[Senate Hearing 113-564]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-564
 
          NOMINATIONS OF ROBERT W. HOLLEYMAN II AND CARY DOUGLAS PUGH

=======================================================================

                                HEARING

                               before the

                          COMMITTEE ON FINANCE
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                 on the

                             NOMINATIONS OF

       ROBERT W. HOLLEYMAN II, TO BE DEPUTY UNITED STATES TRADE 
REPRESENTATIVE, WITH THE RANK OF AMBASSADOR; AND CARY DOUGLAS PUGH, TO 
               BE A JUDGE OF THE UNITED STATES TAX COURT

                               __________

                             JULY 16, 2014

                               __________

                                     
                                     

            Printed for the use of the Committee on Finance



                    U.S. GOVERNMENT PUBLISHING OFFICE 

93-277 PDF                  WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



                          COMMITTEE ON FINANCE

                      RON WYDEN, Oregon, Chairman

JOHN D. ROCKEFELLER IV, West         ORRIN G. HATCH, Utah
Virginia                             CHUCK GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         MIKE CRAPO, Idaho
DEBBIE STABENOW, Michigan            PAT ROBERTS, Kansas
MARIA CANTWELL, Washington           MICHAEL B. ENZI, Wyoming
BILL NELSON, Florida                 JOHN CORNYN, Texas
ROBERT MENENDEZ, New Jersey          JOHN THUNE, South Dakota
THOMAS R. CARPER, Delaware           RICHARD BURR, North Carolina
BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
SHERROD BROWN, Ohio                  ROB PORTMAN, Ohio
MICHAEL F. BENNET, Colorado          PATRICK J. TOOMEY, Pennsylvania
ROBERT P. CASEY, Jr., Pennsylvania
MARK R. WARNER, Virginia

                    Joshua Sheinkman, Staff Director

               Chris Campbell, Republican Staff Director

                                  (ii)




                            C O N T E N T S

                               __________

                           OPENING STATEMENTS

                                                                   Page
Wyden, Hon. Ron, a U.S. Senator from Oregon, chairman, Committee 
  on Finance.....................................................     1
Hatch, Hon. Orrin G., a U.S. Senator from Utah...................     2

                         CONGRESSIONAL WITNESS

Landrieu, Hon. Mary, a U.S. Senator from Louisiana...............     5

                        ADMINISTRATION NOMINEES

Holleyman, Robert W., II, nominated to be Deputy United States 
  Trade Representative, with the rank of Ambassador, Executive 
  Office of the President, Washington, DC........................     7
Pugh, Cary Douglas, nominated to be a judge of the United States 
  Tax Court, Washington, DC......................................     9

               ALPHABETICAL LISTING AND APPENDIX MATERIAL

Hatch, Hon. Orrin G.:
    Opening statement............................................     2
    Prepared statement...........................................    21
Holleyman, Robert W., II:
    Testimony....................................................     7
    Prepared statement...........................................    24
    Biographical information.....................................    26
    Responses to questions from committee members................    37
Landrieu, Hon. Mary:
    Opening statement............................................     5
    Prepared statement...........................................    49
Pugh, Cary Douglas:
    Testimony....................................................     9
    Prepared statement...........................................    51
    Biographical information.....................................    52
Wyden, Hon. Ron:
    Opening statement............................................     1
    Prepared statement...........................................    62

                                 (iii)


     NOMINATIONS OF ROBERT W. HOLLEYMAN II, TO BE DEPUTY U.S. TRADE

  REPRESENTATIVE, WITH THE RANK OF AMBASSADOR, EXECUTIVE OFFICE OF THE

                   PRESIDENT; AND CARY DOUGLAS PUGH,

                          TO BE A JUDGE OF THE

                         UNITED STATES TAX COURT

                              ----------                              


                        WEDNESDAY, JULY 16, 2014

                                       U.S. Senate,
                                      Committee on Finance,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:06 
a.m., in room SD-215, Dirksen Senate Office Building, Hon. Ron 
Wyden (chairman of the committee) presiding.
    Present: Senators Hatch, Crapo, and Thune.
    Also present: Democratic Staff: Michael Evans, General 
Counsel; Kara Getz, Senior Tax Counsel; Todd Metcalf, Chief Tax 
Counsel; Lisa Pearlman, International Trade Counsel; Elissa 
Alben, International Trade Counsel; Anderson Heiman, 
International Competitiveness and Innovation Advisor; and Jayme 
White, Chief Advisor for International Competitiveness and 
Innovation. Republican Staff: Everett Eissenstat, Chief 
International Trade Counsel; Rebecca Eubank, International 
Trade Analyst; Nicholas Wyatt, Tax and Nominations Professional 
Staff Member; and Kevin Rosenbaum, Detailee.

   OPENING STATEMENT OF HON. RON WYDEN, A U.S. SENATOR FROM 
             OREGON, CHAIRMAN, COMMITTEE ON FINANCE

    The Chairman. The Finance Committee will come to order.
    Today the Finance Committee is going to consider two 
nominees, Mr. Robert Holleyman, who is nominated to be Deputy 
United States Trade Representative at the Office of the U.S. 
Trade Representative, and Ms. Cary Pugh, nominated to be a 
judge for the U.S. Tax Court.
    First is Robert Holleyman. If confirmed as Deputy USTR, Mr. 
Holleyman will be responsible for a broad portfolio of issues, 
including trade matters affecting U.S. service providers and 
intellectual property rights owners, as well as the ongoing 
Trans-Pacific Partnership negotiations and the broader U.S. 
trade relationship with Asia, including China.
    It is essential that the U.S. has a Deputy USTR in place, 
given the critical juncture of the TPP negotiations and the 
many challenges that U.S. companies face in China and across 
the region. Mr. Holleyman has had a long career in the 
technology industry, from which he brings a valuable 
perspective on the importance of digital trade to the American 
economy. He has years of experience on the ground, working to 
expand access to markets such as India and China. Digital trade 
has rapidly emerged as a major source of economic growth and 
innovation, and it is fundamentally reorganizing how goods and 
services are made and traded across our borders.
    As significant trade agreements take shape, it is essential 
that USTR provide global leadership in the development of rules 
that make sense for a 21st-century digital economy. I am eager 
to work with USTR and Mr. Holleyman, if confirmed, as they work 
to adopt trade agreements that address these new challenges.
    Mr. Holleyman also has experience on Capitol Hill, where he 
worked in both the majority and minority and served as senior 
counsel on the Senate Commerce Committee. Understanding how to 
work effectively with the Congress is an essential skill in the 
role for which he is nominated.
    Also with us today is Ms. Cary Pugh, who is nominated to be 
a judge on the U.S. Tax Court. The Tax Court is the judicial 
backbone of the Federal Tax Code. The 19 judges who make up the 
court have a challenging mission that requires them to travel 
around the Nation. While it is certainly difficult, these 
judges do indispensable work to ensure that taxpayers' voices 
are heard and that the Nation's tax laws are enforced in a fair 
and effective manner.
    Ms. Pugh comes to this task well-prepared. She served in a 
variety of roles, including time at the IRS, and she is yet 
another alum of the Finance Committee. She has also spent time 
working in the private sector. This range of experiences and 
knowledge is going to serve her well as she adjudicates the 
Nation's tax cases.
    I thank both of the nominees for coming before the 
committee this morning, and I look forward to hearing from each 
of you.
    [The prepared statement of Chairman Wyden appears in the 
appendix.]
    The Chairman. I will say that we are going to have a bit of 
a logistics challenge this morning. There is a vote at 10:15, 
so we will have Senator Hatch make his opening remarks. We are 
also very pleased to have the chair of the Energy Committee 
here. I have had a chance to watch her expertise in action.
    So we will get as far as we can in the first few minutes. I 
do anticipate that we will have to come back, and it should not 
be long after we come back, but we appreciate your patience. It 
is my intention to return immediately after the vote. I know 
some of these votes seem to go on forever, but I will return 
immediately.
    Senator Hatch?

           OPENING STATEMENT OF HON. ORRIN G. HATCH, 
                    A U.S. SENATOR FROM UTAH

    Senator Hatch. Thank you, Mr. Chairman. I just want to say 
these are excellent nominees. I intend to vote for them. I have 
known them for quite a while, to be honest with you, and they 
are good people. I am told that Ms. Pugh has deep roots in the 
Old Dominion. Her family has lived in the same rural community 
for many generations. I am told that your passion is Duke 
University.
    Ms. Pugh. Yes, sir.
    Senator Hatch. Well, I happen to like that too. I like 
their basketball team very much. They tell me you are also a 
patient and well-prepared angler, so you cannot be all bad, is 
all I can say. You also happen to be a great former staffer to 
this committee.
    During your tenure on the Finance Committee Democratic tax 
staff, you became known as a reliable member of Senator 
Baucus's team and developed a reputation as a problem-solver, 
which is important to the committee, accomplishing quite a bit 
in the legislative arena in a relatively short period of time.
    Your reputation only grew in your later government and 
private-sector experience. I think your small-town common sense 
is going to be very important here, but you also have excellent 
academic and professional credentials which should serve you 
well in this position on the Tax Court.
    The Deputy USTR also plays an important role, particularly 
in formulating U.S. trade policy and advocating on behalf of 
America's international trade interests. I have known Mr. 
Holleyman a long time and have a lot of regard for him, and I 
intend to support him. You will be taking on a very important 
portfolio, including Asia, services, and intellectual property, 
all areas where we face significant challenges.
    If anybody can make some inroads there, you ought to be 
able to. Turning first to Asia, China continues to be one of 
our most important and most challenging trading partners. China 
reaps great benefits from an open world trading system, but its 
record of adhering to the rules of that system is mixed at 
best. U.S. exporters and investors in China face a host of 
challenges when trying to compete in China's large and growing 
market, including the continued theft of U.S. intellectual 
property and trade secrets, trade-
distorting subsidies, forced localization, and regulatory 
barriers.
    Throughout Asia, our exporters face a range of barriers to 
their goods and services, and one way to address many of these 
barriers is to negotiate strong rules in the Trans-Pacific 
Partnership, or TPP. But here too, problems persist.
    While I continue to support these negotiations, I am 
becoming increasingly concerned with the direction the 
negotiations appear to be taking. It seems that the 
administration may consider something far less than full tariff 
liberalization from Japan. This would not only result in a weak 
TPP agreement, but also set a very bad precedent for other 
negotiations, including the TTIP negotiations, the Trans-
Atlantic Trade and Investment Partnership.
    I am also concerned that the administration may once again 
short-change U.S. innovators and intellectual property rights 
holders by agreeing to a weak outcome for intellectual property 
rights protection. Let me just be clear: I will not support an 
agreement that does not provide for the robust protection of 
U.S. intellectual property rights, including terms of data 
protection for biologics similar to those found in the U.S. 
law.
    As the author of Hatch-Waxman, I know how important that 
data protection really is, and I get tired of the politics 
being played around that all the time. It had better be the 
same. That was a very hard set of negotiations that allowed us 
to reach those particular data protection figures.
    Mr. Holleyman, if confirmed, intellectual property rights 
and innovation will also be part of your portfolio. It is 
essential that the Deputy USTR be a powerful advocate for 
strong intellectual property rights protection. I think you 
will be. I hope that you will be that voice, and such an 
advocate is badly needed at USTR right now.
    But another area that would be in your portfolio is 
services. Trade in services is one of our country's most 
competitive exports. If confirmed, you must work closely with 
Ambassador Punke to ensure that we meet the ambitious goals of 
the trade and services agreement and the TTIP. I will also be 
counting on you, if confirmed--and I think you will be--to 
ensure that all services, including financial services, are 
included in the regulatory coherence and market access outcomes 
of TTIP.
    Finally, I hope you will help push the administration to be 
a stronger, more public advocate on behalf of renewing Trade 
Promotion Authority, or TPA. Without it, I do not think the 
administration can negotiate high-standard trade agreements 
that will achieve the goals of Congress and that will be passed 
into law. The Bipartisan Trade Priorities Act that I introduced 
with former Senator Baucus and Chairman Camp would renew TPA 
and outline a set of bipartisan priorities for our trade 
negotiators.
    Now, a lot has changed since the last time TPA was renewed 
in 2002. Our bill recognizes that reality and, with extensive 
input from multiple stakeholders, we have created a bill that 
addresses the challenges our job creators, workers, farmers, 
and ranchers are facing today. So I hope we can move on our 
legislation as soon as possible. We have a new chairman, and he 
is excellent, and I think we can do this. It is essential to 
ensure that the ambitious trade negotiations currently under 
way are successful and that we achieve the best possible 
outcome for the American people.
    Mr. Chairman, I thank you once again for holding this 
hearing.
    The Chairman. Thank you, Senator Hatch. I very much 
appreciate your statement. I also want to note that you have 
long focused on this absolutely critical area of protecting 
intellectual property, and I very much appreciate your focus 
here again today.
    [The prepared statement of Senator Hatch appears in the 
appendix.]
    The Chairman. Our first nominee is going to be Mr. Robert 
Holleyman, nominated to be Deputy United States Trade 
Representative. It is a tradition in this committee, Mr. 
Holleyman, that you introduce your family.
    Mr. Holleyman. Thank you, Mr. Chairman. I would like to 
introduce my husband, Bill Keller, who is here in the front row 
and who is joined by friends who are here and family in 
Louisiana who are watching via the webcast.
    The Chairman. Very good. It is nice to have the chair of 
the Energy Committee here, a long-time ally of Senator Hatch 
and I on a whole host of matters. She wants to make sure that 
the voice of Louisiana is heard again this morning.
    Senator Landrieu, let us have you introduce Mr. Holleyman.

               STATEMENT OF HON. MARY LANDRIEU, 
                 A U.S. SENATOR FROM LOUISIANA

    Senator Landrieu. Thank you, Mr. Chairman. It is wonderful 
to see you in your new role as chair of this important 
committee. Thank you for your leadership for our Nation and for 
your support of me as I learn how to be a chair of the Energy 
Committee. Senator Hatch, thank you for your support of these 
two nominees.
    I am here to present to the committee Robert Holleyman. 
Robert and I did not meet here on the Hill; we actually met in 
high school many years ago when we were both up here to 
represent our respective schools--his in Lake Charles, mine in 
New Orleans--at the Louisiana Youth Seminar. It was there that 
we were encouraged to pursue more leadership abilities, and so 
here we are as the U.S. Senator and as Ambassador from our 
State, or soon to be.
    We shared that unique experience early in life and both of 
us have continued our passion to represent our State and to try 
to help make this country a better place.
    Robert grew up in Lake Charles. He still has family and 
friends throughout the State. He is married to Bill Keller. 
Bill is a wonderful partner, and we are proud of both of them.
    As many of you will understand, you can take a man out of 
Louisiana, but you cannot take Louisiana out of the man. I am 
confident that Robert--who grew up literally within earshot and 
across the street from the Port of Lake Charles, which is the 
most important trading port in our country--will bring all of 
that background to the position that the President has 
nominated him to serve. He graduated from Barbe High School, a 
great public school in Lake Charles, graduated from Trinity 
University in San Antonio, and then received his law degree 
from Louisiana State University.
    After being admitted to the bar, he served as clerk for the 
late U.S. District Judge Jack Gordon in the Eastern District of 
New Orleans. He then, amazingly, moved to Washington to work 
for Senator Russell Long, former chair of this exact committee. 
So he is actually back where he started many years ago, and now 
as a proposed Trade Representative.
    He worked for an extensive period of time with the Senate 
Commerce Committee. He is extraordinarily familiar with and 
steeped in the issues before the Finance Committee as they 
relate to trade. I believe strongly that is why President Obama 
has tapped him to serve in this capacity.
    In addition, his career after the Hill, which was in the 
software industry and remains to this day in the high-tech 
community, is going to best serve him, I think, to represent 
our country in these negotiations. He is currently CEO and 
founder of Cloud4Growth, a cloud technology development 
company, and he represented the Software Alliance from 1990 to 
2013.
    So, Mr. Chairman, his experience as a young leader, his 
commitment to leadership and excellence throughout his career, 
his professional background, his academic degrees, and his work 
already deeply imbedded in work of the Finance Committee, on 
the Commerce Committee, and in the office of Senator Long, I 
think give him a very long and broad perspective of the kind of 
issues that Senator Hatch has raised which are so important, 
making sure that America is well-represented--America as our 
country, but also America as small business owners--and that 
the average person is well-represented at those trade 
negotiations so that our people are not left behind.
    I will conclude with, Louisiana has right now--and Mr. 
Holleyman is very familiar with the challenges of trying to 
promote fair trade with the Pacific Rim, with China, and many 
of the countries in the Pacific. We have had some serious 
issues with dumping of seafood, crawfish, and shrimp that are 
undermining a part of our economy that is very, very important. 
There have been some threats to the Jones Act, which protects 
our maritime shipbuilding industry, which is extremely 
important to Louisiana.
    So believe me, I would not be supporting someone for this 
position if I did not think that he was capable of representing 
the interests of Louisiana, the Gulf Coast, shipbuilding, our 
seafood industry, and let me mention our movie industry. I am 
not California, but Louisiana has literally just surpassed 
California in movie production in the Nation, amazingly.
    There is a big threat under way for China and some of these 
countries to steal this intellectual property and to undermine 
the domestic creative industries here in America and promoted, 
amazingly, through Louisiana.
    So Robert is familiar with these challenges. That is why I 
give him full support. I know he will do a wonderful job. 
Robert, thank you for your leadership over these many years.
    And I will submit the rest of my statement for the record, 
Mr. Chairman.
    The Chairman. Senator Landrieu, thank you for a very 
thoughtful introduction. I think, Mr. Holleyman, you know that, 
when you are with Chairman Landrieu, you are running with the 
right crowd. Suffice it to say, Chairman Landrieu, I think your 
point with respect to trade enforcement is particularly 
important. After Ambassador Froman came to the committee, that 
was actually our first hearing on trade enforcement.
    [The prepared statement of Senator Landrieu appears in the 
appendix.]
    The Chairman. I like to think that it is already paying 
off, because we had the United Steelworkers and the U.S. Steel 
Company here, and last week we had a favorable decision with 
respect to Korea. So I think that what is now being shown is 
strong bipartisan interest around exactly the kind of issues 
that you have raised, and I thank you for, once again, your 
incisive comments.
    Our next nominee is Cary Pugh, nominated to be a judge on 
the U.S. Tax Court. Ms. Pugh, if you could introduce your 
family, that would be great.
    Ms. Pugh. It would be my pleasure. My parents are also 
watching from home in Lynchburg, VA, but I am pleased to 
introduce my sister Sydnor Smalera; my brother-in-law Andrew; 
my niece Frances, who is missing camp; my aunt Margie Pugh; and 
my cousin Daniel Dixon and his son Weston, who also drove up 
from Lynchburg to join me today.
    The Chairman. Very good. Also with us today, and we are 
honored to have them, are five distinguished judges of the U.S. 
Tax Court. The Chief Judge is with us, Mr. Michael Thornton, 
who for many years served as tax counsel on the Ways and Means 
Committee; Judge Joseph Gale, who served as an advisor and 
chief counsel on this committee under Chairman Moynihan; the 
esteemed Judge John Colvin, who, among many other things, spent 
many years in this room as counsel to Chairman Packwood--so we 
are happy to have the Oregon connections--and they were days, 
notably, during the Tax Reform Act of 1986; Judge Kathy 
Kerrigan, who served with distinction both in the House and 
under our former Finance Committee colleague Senator Kerry; and 
finally, Judge Joe Nega, who joined the Court after serving as 
a legislative counsel on the Joint Committee on Taxation for 
nearly 30 years.
    So we have the distinguished judges of the U.S. Tax Court 
out in force this morning, and we very much appreciate your 
professionalism and having you with us. We thank our nominees 
and our guests for being here.
    Just so you know, it is our usual practice that the 
prepared statements are automatically made part of the hearing 
record. We would like you to use your 5 minutes to summarize. 
Since we are well into the vote, I would say to our nominees, I 
will run over. I have my credibility on the line with Senator 
Hatch that this will be very brief, so I will run/sprint over 
to vote, and I think we can recommence in probably about 10, 12 
minutes.
    So with that, we will go vote, and we will return shortly 
for your statements.
    [Whereupon, at 10:25 a.m., the hearing was recessed, 
reconvening at 10:45 a.m.]
    The Chairman. All right. The committee will come back to 
order.
    I very much appreciate our nominees' patience; today looks 
hectic even by Senate standards.
    Let us start with you, Mr. Holleyman. We welcome you.

  STATEMENT OF ROBERT W. HOLLEYMAN II, NOMINATED TO BE DEPUTY 
     UNITED STATES TRADE REPRESENTATIVE, WITH THE RANK OF 
 AMBASSADOR, EXECUTIVE OFFICE OF THE PRESIDENT, WASHINGTON, DC

    Mr. Holleyman. Chairman Wyden, I want to thank you, Ranking 
Member Hatch, and the distinguished members of this committee 
for the privilege to appear before you to testify as the 
nominee for Deputy U.S. Trade Representative. I am humbled by 
the confidence that President Obama and Ambassador Froman have 
placed in me to serve in this position.
    I would like to thank Senator Mary Landrieu for her warm 
introduction and for her support. I have valued our friendship 
over many years, and fellow Louisianians are fortunate to have 
such a strong leader and advocate here in Washington.
    I would also like to thank my husband, Bill Keller, who is 
with me today. His steadfast support and shared belief in 
public service help enable me to make the full commitments 
needed for the work ahead. With my friends who are also here 
and family who are watching, this really has enabled me to 
eagerly take on these challenges.
    Thirty-two years ago, I moved to Washington to work for my 
home State Senator, Russell Long. He served as chair and 
ranking member of this committee for 20 years. From him I have 
a profound appreciation for the role of this committee and of 
Congress in formulating trade policy.
    Following his retirement, I was fortunate to serve as 
counsel for the Senate Commerce Committee under Chairman Fritz 
Hollings, and I am honored to be sitting now on this side of 
the witness table with the opportunity to once again serve the 
American people.
    Throughout my time working in Congress and in the 
technology industry, I have witnessed the benefits of trade for 
American businesses and workers. I have seen directly how U.S. 
exports can drive growth. I have also seen how close 
consultation with Congress and with stakeholders can help craft 
better policies that benefit American businesses and support 
jobs here at home.
    I have lived at the epicenter of the digital economy since 
its early days. I have worked to ensure that U.S. goods and 
services secure fair treatment across borders and that our 
innovative industries which rely on strong and balanced 
intellectual property protections can be given the best chance 
to succeed abroad. I traveled extensively to Asia, Europe, 
Africa, and Latin America on behalf of American innovators to 
promote U.S. ingenuity and break down trade barriers, helping 
to create and protect American jobs here at home. If confirmed, 
I hope to build on this work, and I look forward to joining a 
dedicated team at USTR that is working on one of the most 
ambitious trade agendas in a generation.
    Together, the TPP and TTIP account for two-thirds of global 
GDP. Our partners in TISA, ITA, and the just-launched 
Environmental Goods Agreement each account for upwards of 80 
percent of trade in their respective global sectors. In the 
WTO, the administration is working with 160 members to make the 
institution and the agenda more relevant to stakeholders and 
the world as it exists today.
    I know firsthand that the United States and our workers can 
win in the global economy. If confirmed, I am committed to 
making the United States the innovation and production platform 
of choice and to strengthening the potential for Made in 
America goods, services, and agricultural products.
    At the same time, we must hold our trading partners 
accountable by vigorously enforcing our existing trade 
agreements. It is critical that we take a whole-of-government 
approach to addressing unfair trade practices. If confirmed, I 
would bring to my position a strong background in global 
enforcement matters to support the administration's unmatched 
enforcement record.
    I have had the honor of meeting with you, Mr. Chairman, and 
other members of this committee in preparing for this hearing. 
That has helped give me an even better understanding of the 
priorities in your home States and for this committee. If I am 
confirmed, I am committed to strengthening and maintaining that 
ongoing partnership with each of you and with Congress.
    In conclusion, I thank the President for this opportunity 
and the committee for considering my nomination. I look forward 
to answering any questions you may have. Thank you.
    The Chairman. Thank you very much, Mr. Holleyman. We will 
have questions momentarily.
    [The prepared statement of Mr. Holleyman appears in the 
appendix.]
    The Chairman. Ms. Pugh, welcome.

STATEMENT OF CARY DOUGLAS PUGH, NOMINATED TO BE A JUDGE OF THE 
            UNITED STATES TAX COURT, WASHINGTON, DC

    Ms. Pugh. Thank you, Mr. Chairman, Ranking Member Hatch, 
and members of the committee. It is a true honor to be before 
you today as the President's nominee to serve as a judge on the 
United States Tax Court. I am grateful to the President for his 
confidence in me and to the committee for the opportunity to 
appear today.
    I am especially grateful for the support of the staff of 
this committee throughout the process, and their swift 
consideration. Of course, I would not be here today without the 
support of many others throughout my life and my career, 
starting with my family, but also friends and colleagues and 
mentors who have helped me immeasurably along the way. Some of 
them have joined me today, and I would like to particularly 
mention Russ Sullivan, who actually hired me to join the 
committee staff back in 1999.
    I have been blessed by many opportunities in my chosen 
profession, including the years I worked for this committee. I 
treasure that experience, but none of my past work could 
surpass the position for which I have been nominated. My mother 
worked as a legal secretary before I was born, and I announced 
on a 3rd grade academic game show that I would be a lawyer. I 
chose a legal career early, or it chose me.
    Tax law came later, as I grew to understand how it touches 
all aspects of lives and economic activities. I have learned 
over my legal career and in my endeavors outside work that I 
feel the greatest sense of accomplishment when I am able to 
resolve issues and disputes.
    As a tax lawyer then, I have a particular affinity for a 
court charged specifically with resolving tax disputes between 
taxpayers and the government. Working for the government--as 
staff of this committee and then at the IRS Office of Chief 
Counsel--and for clients, both pro bono and paying, I have seen 
the key role that this court plays in shaping the tax law, and 
I have witnessed the importance of a forum for taxpayers to 
have their say before an impartial party.
    This is true for individuals and corporate clients. It is 
also true for the IRS. The key to our system is respect for the 
law, for everyone--from the smallest taxpayer to the largest 
corporation to the government--to understand that, in the end, 
it is the law that matters, not who you are or how much is at 
stake.
    It is just as important to the work of this committee and 
Congress to have confidence that the law will be applied fairly 
and impartially. If I am confirmed, that will be my guiding 
principle. I am grateful to the President for his confidence in 
nominating me and will aspire to be worthy of the position if 
this committee and the Senate deem me qualified.
    Thank you again, Mr. Chairman, Ranking Member Hatch, and 
other members of this committee, for your consideration. I 
would be happy to answer any questions.
    The Chairman. Ms. Pugh, thank you very much. I appreciate 
both of the statements that you all have made.
    [The prepared statement of Ms. Pugh appears in the 
appendix.]
    The Chairman. Now, it is our standard process to ask you 
four questions. I will ask them of both of you, and we can get 
through the questions expeditiously.
    The first question is, is there anything that you are aware 
of in your background that might present a conflict of interest 
with the duties of the office to which you have been nominated?
    Mr. Holleyman. No, Mr. Chairman.
    Ms. Pugh. No, Mr. Chairman.
    The Chairman. Second, do you know of any reason, personal 
or otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Holleyman. No, Mr. Chairman.
    Ms. Pugh. No, Mr. Chairman.
    The Chairman. Do you agree, without reservation, to respond 
to any reasonable summons to appear and testify before any duly 
constituted committee of Congress, if confirmed?
    Mr. Holleyman. Yes, Mr. Chairman.
    Ms. Pugh. Yes, Mr. Chairman.
    The Chairman. Do you commit to provide a prompt response in 
writing to any questions addressed to you by any Senator of 
this committee?
    Mr. Holleyman. Yes, Mr. Chairman.
    Ms. Pugh. Yes, Mr. Chairman.
    The Chairman. Very good. Let's do this, because I think it 
will be somewhat discombobulating if we try to go back and 
forth between trade and the Court.
    Let me start with you, if I might, Mr. Holleyman. I think 
you all there in the trade field know that I feel very strongly 
that trade policy needs an upgrade. It needs an upgrade, at 
least because we have seen an explosion of digital trade, 
digital goods, digital services, and this is a new economic 
driver in our country.
    What we have faced is a host of new trade barriers--this is 
what American providers have faced as a result--and the 
barriers are not just, I think you might say, technical, tech 
industry issues. Whether you are an auto manufacturer in 
Detroit or a financial services provider in New Jersey, today 
you consider data flows absolutely key to efficiently sell your 
product in these increasingly competitive global markets.
    Coming from the tech sector, my view has been that you have 
a unique perspective on how to reshape U.S. trade policy to 
account for these digital challenges, and I think you heard me 
say that one of the reasons I feel so strongly is that this is 
``advantage America.'' This is an area where we have a cutting-
edge lead.
    Why don't we start by having you outline what you would do, 
if confirmed, to heighten awareness among the many different 
offices within USTR to address these issues and ensure that an 
integrated, comprehensive strategy is put together to deal with 
them?
    Mr. Holleyman. Mr. Chairman, thank you for that question. I 
certainly know of your keen interest in this issue, and of 
other members of this committee. I share that keen interest. 
Indeed, I share the imperative of ensuring that the U.S. trade 
policy be at the forefront of leading and establishing the 
rules of the road for digital trade.
    The U.S. currently has a $135-billion trade surplus in 
digitally delivered goods. That number will grow, but that 
number will only grow if we work now to put the right rules in 
place that will allow and recognize not only how this affects 
the technology industry, but also users of data and information 
that are important.
    Coming out of the technology industry, I know quite well 
that the rules of the road in trade that the U.S. helped 
negotiate over the past 20 years have been essential in 
allowing U.S. innovators to succeed globally as they have under 
existing trade regimes, but those rules, while a good 
foundation, do not fully contemplate the type of barriers that 
we are now seeing to digital trade.
    That makes it all the more important for this committee, 
Congress, and the administration to be driving a digital trade 
agenda. I intend to pursue that vigorously to ensure that in 
the next 20 years, the next 40 years, that American 
entrepreneurs and workers have the same opportunities to 
succeed as they have had in the past.
    That means things like ensuring that there are cross-border 
data transfers, ensuring that we have provisions against forced 
localization, ensuring that there is not a discrimination 
against digital products, and ensuring that there is the legal 
certainty so that businesses know how to operate in this 
environment. I look forward to working with you and with the 
committee, and, if confirmed, with USTR and the whole of 
government, to focus on these critical issues.
    The Chairman. Let's go to the question of transparency in 
these trade negotiations. I think you heard me say privately, 
but I just want it stated publicly, this is an absolute 
prerequisite in order to build a new bipartisan coalition for 
trade policy in our country. It is something I feel very 
strongly about.
    In my State, one out of six jobs depends on international 
trade. The trade jobs pay better than do the non-trade jobs, 
because they reflect a high level of productivity. What 
Oregonians want to do is pretty similar to what a lot of people 
in this country want to do, and that is to grow things and make 
things here, add value to them here, and then ship them 
somewhere.
    We are not going to be able to win support, bipartisan 
support, for a new coalition to get trade policy passed--not 
just TPP, about which you will be specifically concerned with, 
but trade generally--unless the American people are brought 
into this debate. Right now they have been in the dark. They 
have been in the dark, and some of these staff people who were 
sitting behind me have had difficulty getting access to some of 
the key documents that are necessary.
    I want you to know, and I have told Ambassador Froman this, 
I have told the President this, that the American people have 
to be brought into this debate. This is not something that you 
can just send to the U.S. Congress and say, all right, you all 
are going to have a vote under the current laws--that is that.
    The American people have to be brought into this debate, 
and the Congress has to be consulted about the specific terms. 
So my question to you is, if confirmed, what would you do to 
make sure that both the Congress and the American people are 
brought into this discussion, this discussion about U.S. trade 
agreements, before, underline before, they are signed?
    Mr. Holleyman. Mr. Chairman, thank you for that question. 
We have had an opportunity to talk about this. I have certainly 
paid very close attention to the keen level of interest you and 
other members, not only of this committee but of Congress, have 
on this issue. I think that certainly, in the digital era in 
which we live, citizens have an expectation for availability of 
information at all levels, including how government pursues 
these issues.
    I commit to, if confirmed for this position, doing 
everything I can to work with you and with this committee as we 
look to ensure the greatest level of confidence and 
information. I commit to making this a chief priority.
    The Chairman. I am not going to flog this any further. I 
know a nomination hearing is not the time to get into 
specifics, but it will be shortly, because this is a 
prerequisite. If we want to have a new bipartisan coalition for 
America's trade agenda and the ability to create high-skilled, 
high-wage jobs in tough global markets--I can tell you, I had 
town hall meetings it seems like a few days ago on Oregon's 
south coast, in Coos Bay and Curry County, and, as I made my 
way through town meetings, people would bring this issue up.
    They would say, ``I know you all are talking.'' They are 
not into all the details about the Ts: TPP, TPA, TTIP. They 
say, ``We want to know what's going on. It is not acceptable to 
just negotiate stuff in a bunch of hearing rooms in Washington, 
DC and then tell us we're supposed to be for it.'' So today is 
not a day for going into further detail, but that day will come 
shortly, and we will need more specifics.
    On the issue of China retaliation and enforcement, as you 
know, the committee held a hearing on trade enforcement 
recently and how to ensure that U.S. companies, farmers, 
ranchers, and workers get the benefit of the bargain from the 
trade rules on the books. This too goes right to the heart of 
what the trade debate is going to be about, because people 
often come up to me, and they know I have been a supporter of 
all the major trade agreements.
    They say, ``Why in the world would you be talking about a 
new trade agreement if you are not going to enforce the laws on 
the books?'' So we have put a significant effort here into 
these issues, and you heard me say to Senator Landrieu, I 
think, some of our effort to beef up enforcement has already 
borne fruit, because we were pleased about the effort with 
respect to Korea.
    An additional enforcement challenge that was highlighted at 
our recent enforcement hearing is that our companies are 
increasingly subject to retaliation by China and others when 
they stand up for their rights, using U.S. trade laws, or help 
the U.S. Government take enforcement action at the World Trade 
Organization.
    Now, if you are confirmed as the deputy responsible for 
China trade matters, how would you, working in collaboration 
with the General Counsel, work to ensure that there is a strong 
enforcement effort in light of this growing problem? You may 
also know about the problem in Oregon with respect to 
SolarWorld, one of our leading solar manufacturers, where there 
are high-skill, high-wage jobs being cyber-hacked. So this 
enforcement issue with respect to China and retaliation, this 
is priority business. How would you respond?
    Mr. Holleyman. Well, Mr. Chairman, I agree that China is 
priority number one. I think priority number one in this is 
ensuring we have enforcement, and adequate enforcement, of 
existing agreements. I have spent, in my career, 20 years 
engaging on issues related to China trade, including spending a 
lot of time on the ground in China trying to find new ways to 
enforce rights that exist, to close loopholes, and to try to 
ensure that innovative American companies and others can 
succeed in that market.
    So I am committed to working with this committee, if 
confirmed, and with the whole of the administration to focus on 
that priority. I think it starts with enforcement of existing 
agreements, it starts with forging new agreements in critical 
areas like protection of trade secrets and enforcement, and I 
think it requires being diligent in every bilateral and 
multilateral negotiation.
    Let me say on the issue of retaliation, I have certainly 
seen and I share your sense that there is a growing, not only 
risk, but occurrence, of retaliation that many U.S. companies 
face when they raise issues affecting China. I think that makes 
it increasingly imperative that the full weight and force of 
the U.S. Government be placed on these issues, because many 
U.S. companies cannot be or are not in a position to be 
forward-leaning.
    Finally, let me say that I think there is an opportunity to 
create some partnerships with like-minded trade partners in 
other parts of the world, as we did on the indigenous 
innovation in China issue, so that it is not simply the U.S. 
standing up on these issues but finding our allies, because 
ultimately fair trade--and fair trade in China--is dependent 
upon collective activity.
    The Chairman. Let me turn now to intellectual property. As 
you heard Senator Hatch say, and in my view very appropriately 
so, this is a very significant part of our focus here. I have 
long been a supporter of policies like section 230. This was a 
law that Congressman Chris Cox and I wrote together on a 
bipartisan basis that many have said really was the legal 
foundation for the investment in social media, because, prior 
to that law that Congressman Cox and I wrote, you could have a 
website or a blog held liable for something that was posted on 
it.
    Of course, the website owner or the blog could not have any 
idea where it was coming from or who was controlling it. That 
law ensured that the website and the blog would not be held 
secondarily liable. I have been told that you would not have 
had investment in social media without that law, because 
investors would not have been willing to put money into social 
media without having that security that they would not be held 
secondarily liable.
    So I am very interested in these policies with respect to 
what is needed to encourage growth and innovation in the 
digital economy. I think, as we have talked about going back to 
those early laws that Congressman Cox and I wrote, I think this 
is a completely bipartisan kind of concern.
    I feel strongly that our country ought to oppose proposals 
that would undermine the fundamental architecture and openness 
of the Net. As you know--we talked about it--there are some who 
are concerned that your views on intellectual property do not 
take into account the balance required to preserve free speech 
and innovation and the economic dynamism of the Internet.
    I think it would be helpful to just have on the record your 
description of your perspective here on these policy issues 
that would ensure that the Internet remains an open platform 
for speech and commerce and the engine of economic growth and 
job creation that has been a priority of mine--I note I am 
joined here by Senator Thune. He and I have teamed up on 
another major initiative with respect to data flows and digital 
goods, so why don't you give us your position on IP, if you 
would.
    Mr. Holleyman. All right. Mr. Chairman, I think your 
question is absolutely the right one. I think it follows up, 
importantly, on a conversation that you and I had in your 
offices after I had been nominated for this position.
    Certainly, I want to be clear in saying that, as someone 
coming out of the technology industry, I believe it is 
critically important for us to not only foster, but encourage, 
the growth and openness of the Internet. Indeed, the type of 
digital commerce, the digital trade issues that you and Senator 
Thune and others have worked together on, are dependent upon 
that platform.
    I believe that, in the area of intellectual property 
protection, the U.S. has committed to supporting the type of 
provisions that exist in U.S. law that provide for a balanced 
protection of recognizing the link between intellectual 
property protection and innovation, but also the type of 
exceptions and limitations that exist in U.S. law ensuring that 
the type of social media and other commerce that you were 
addressing with Senator Cox in the Communications Decency Act 
are also carried forward as fundamental values of the U.S. I 
commit to working with you, working with Senator Hatch, working 
with the administration, to ensure that that proper balance is 
struck and is reflected in our trade negotiations.
    The Chairman. Let me ask you one other question, and then I 
will turn to my friend from South Dakota. Now, our 
understanding is your portfolio will include Asia, services, 
investment, and intellectual property and innovation. So that 
is a pretty big portfolio. You are not going to be sitting 
around reading paperbacks up there at this job. Also, with 
negotiations over the TPP, that will certainly consume a good 
chunk of your time.
    Why don't we just wrap up this portion, and then I am going 
to go to my friend from South Dakota for his questions. Give us 
your sense of what the big opportunities are for American firms 
in Asia, and then the challenges, sort of a quick overview: 
opportunities, challenges.
    Mr. Holleyman. Sure. For Asia, I would say it really breaks 
down into sort of three things. One, I think we have a unique 
position of opportunity to try to be the leader in striking the 
new 
forward-looking trade agreements with our partners in Asia that 
really ensure that the kind of values and the openness and the 
opportunities for innovators in America exist in that region. I 
think it is particularly important for us to be, as we are in 
TPP and elsewhere, stepping up to the plate and showing that 
kind of future-oriented trade, including in areas like digital 
trade.
    I think the second priority in Asia, even for the region, 
is always the same, back to China, which is, with China, we 
have to work regionally to ensure that the U.S. influence on 
trade policy addresses some of the practices that we have seen 
in China that can be most harmful to American innovators, job 
creators, and workers trying to gain access to that market.
    So I think that is finally, at the end of the day then, the 
challenge for the region, which is to make sure that every tool 
that we have existing for enforcement, whether it is our 
bilateral agreements, whether it is multilateral agreements 
through the WTO and elsewhere, that we are using those 
vigorously to enforce rights, to establish the kind of conduct 
that is necessary, and really to be a leader going forward.
    The Chairman. Senator Thune?
    Senator Thune. Thank you, Mr. Chairman.
    Mr. Holleyman, as the chairman noted, these are issues that 
he and I have worked together on extensively. I know you have 
already plowed some of the ground with regard to digital trade, 
cross-border data flows, things that we have a great interest 
in. I would also like to maybe ask this question a slightly 
different way. There is a suggestion that has come from some 
other nations around the world in the wake of the NSA 
surveillance disclosure that countries ought to attempt to 
create their own national or regional Internet networks.
    I am just curious about your thoughts with regard to 
keeping the Internet as an open platform for business, 
information, and education, and how a regional network that 
treated U.S. companies differently than other companies around 
the world and websites within the network, whether or not that 
would constitute a new form of trade barrier. So just overall 
give us what your thoughts are with respect to that issue, 
because that is something that we hear being discussed by other 
countries.
    Mr. Holleyman. Senator Thune, I absolutely do believe that 
things like that can be significant barriers to trade, and not 
only significant barriers to trade, but they can really 
undermine the fundamental underpinnings of the cloud-computing 
model and where we are headed.
    I think efforts to fight against the Balkanization of the 
cloud are good for users of the cloud, because really the way 
the cloud works is through the collective efficiencies and cost 
savings that come through allowing data to be exchanged and 
really bringing low-cost computing capacity to both citizens 
here and in emerging economies. That allows a level of 
innovation unlike anything we have been able to see, because it 
really breaks through the barriers to cost.
    For countries that want to break up the cloud, to Balkanize 
the cloud, I think they are doing it for misguided reasons, one 
of which is, I think that some countries believe that the 
economic value of the cloud is around hosting physical servers 
in their markets.
    We need to help them understand, as the U.S., that that is 
not the economic value of the cloud. We also need to help them 
understand that this is not just a U.S. interest, but indeed it 
is also an interest for many emerging markets where small 
companies and entrepreneurs, if given the ability to use an 
unfettered cloud, will be able to grow and prosper.
    So I think we have to lead here. I think this is part of 
the digital trade agenda in TPP and TISA, TTIP, and elsewhere. 
If confirmed for this position, I commit to working closely 
with you and with the chairman to make sure that this absolute 
imperative for the U.S. moves forward.
    Senator Thune. That would be great. Chairman Wyden and I, 
on the digital trade bill that we have introduced, designed it 
to really put additional focus and light on, as we negotiate 
these trade agreements, the importance of not having these 
types of protectionist barriers raised against American digital 
goods. If you look at it, there is enormous potential out there 
globally for American business and the opportunity for economic 
growth on levels that ought to make everybody interested in 
this issue.
    It is one of the few areas in our economy where we actually 
run a trade surplus. Do you know what I mean? It is a net-net. 
It has been a very good thing for our economy, and I hope that 
we will be able to be very clear in these negotiations that 
this is an issue on which we cannot give ground. We need to 
make sure that we keep this platform open, and I hope that that 
will be a high priority for you and for your colleagues at 
USTR.
    I want to shift gears for just a minute and talk a little 
bit about another issue that is of great importance to me, and 
that is agriculture and how these trade agreements impact 
American farmers, and particularly market access in Asia, which 
I know will be geographically under your portfolio.
    I know you have people who specialize in agriculture, and 
that may not be your specific area of interest, but I want to 
know if you could assure me and other members of the committee 
that you will insist on a TPP outcome that results in broad-
based tariff elimination and meaningful market access for our 
agricultural producers.
    We see areas like Japan as huge market opportunities. They 
historically have worked very hard to limit the discussion on 
agricultural issues to a very narrow range, and I hope that we 
can make this a very broad-based attempt, at least, to do away 
with a lot of these tariffs and other types of barriers that 
they erect to our products.
    Mr. Holleyman. Senator, I understand your keen interest in 
this. We run a trade surplus in agricultural products of about 
$40 billion a year. The fastest-growing market opportunities 
are in Asia--existing markets and the fastest-growing.
    I think we have an opportunity, and I will commit to 
working with my colleagues at USTR throughout the building, to 
ensure, whether it is through TPP or elsewhere, that we provide 
comprehensive and meaningful market access to agricultural 
markets, including Japan and elsewhere, and that we look at the 
type of SPS and other measures that are being used in some 
markets to try to block legitimate, healthy, and safe U.S. 
products from getting into those markets. It is an important 
part of the economy today. It is an important part of the 
economy even more going forward, and Asia is really a huge 
opportunity for us. I commit to working with you on that.
    Senator Thune. Well, we will look forward to continuing the 
dialogue on that. I mentioned Japan and also China. China is 
the number-one market for soybean exports, a very fast-growing 
market for corn. They are not approving, at least in a timely 
way, new biotech traits, which is something that is very 
troubling and could have a significant negative impact on our 
trade relationship.
    I hope that, if confirmed, you will work with your 
counterparts in China to move expeditiously on the approval of 
agricultural biotech products that have already been approved 
in the U.S. for entry into the Chinese market. They have, on 
some of these issues, been very difficult to deal with of late. 
Of course, that has a lot of implications for agricultural 
trade, which, as you mentioned, is another area of our economy 
that is a real bright spot.
    We globally have enormous opportunity through TTIP and TPP 
to really expand the reach of American agriculture and to help 
feed the world, but, in order to do that, we have to get these 
new technologies, these new biotech traits, approved in some of 
these countries. So we will look forward to working with you on 
that, and I will take your assurance that you will press on 
those issues and make that a priority. I will take that as 
reassurance that you will be very engaged on those. So, thank 
you. I appreciate that.
    Mr. Chairman, thank you.
    The Chairman. Thank you, Senator Thune.
    Mr. Holleyman, let me just highlight a couple of the points 
that Senator Thune mentioned. First, I would just want to make 
clear that opening Japan's agricultural market is priority one 
for agriculture. In our State we do a lot of things well, but 
what we do best is, we grow things. You could be talking about 
Oregon wheat, you could be talking about our fruits, you could 
be talking about our vegetables. But Senator Thune is spot-on 
with respect to making sure that these markets in Asia are open 
to agricultural products.
    Second, on the matter with respect to the Internet, where 
Senator Thune also was commenting, I would just say that to 
echo Senator Thune's comment, he and I wrote an op-ed article 
for the Wall Street Journal, and the heart of our op-ed was to 
make sure that concerns about surveillance do not become a 
stalking horse for digital protectionism. That was right at the 
heart of our article.
    So you have two Senators, one a Democrat, one a Republican, 
saying very similar things with respect to trade that you will 
be dealing with.
    Let me turn now, if I could, to your colleague for a few 
moments. First, I think it would be helpful if we could have 
kind of a teach-in here on what somebody does at the Tax Court. 
Tell us what you see your role is as a Tax Court judge.
    Ms. Pugh. Thank you, Mr. Chairman. I think the role of the 
Tax Court judge really is to give an opportunity for taxpayers, 
in a pre-payment forum--that is, they do not have to pay the 
amount that the IRS says that they owe first to get into Tax 
Court--to have a chance to go before a judge, to have a judge 
determine whether in fact they owe that money to the government 
or not.
    It is an important forum for the smaller taxpayers. The 
judges travel around the country. They do sit in Washington, 
but they travel to all 50 States so that the taxpayers do not 
have to travel, so that they can have their issues heard by 
someone who should be, and hopefully is, always impartial.
    One of the other important features of the Tax Court is 
that many of the taxpayers appear without representation, so 
one of the challenges for the judges is to be able to elicit 
from the taxpayers the true facts and then make a decision 
based on the law as applied to the facts in the case.
    The Chairman. All right. Let us also see if we can get some 
free advice here on one other tax matter. You probably read 
that we are blasting ahead full steam on tax reform. I have 9 
years' worth of sweat equity into putting together bipartisan 
bills and have worked with colleagues on this committee and off 
the committee.
    One of the central questions is the discussion about 
simplifying the code and streamlining the expenditures. I think 
you are aware that, since the last time there was tax reform, 
we have had something like 15,000 changes. It comes to around 
one for every working day for every year, year in and year out, 
since the last time there was tax reform.
    So by way of asking for some free advice, what do you think 
might be done, recognizing that the devil is obviously in the 
details--and in the tax code the details number in the 
thousands--to cut down on the number and thereby reduce the 
type of controversies that come before the Tax Court?
    Ms. Pugh. Yes, Mr. Chairman. I have watched with great 
interest and applaud the work of this committee, and the work 
of Congress, in laying the groundwork for fundamental tax 
reform. Obviously, as you said, the devil is in the details, 
but simplification should be the goal, along with promoting 
economic growth and competitiveness.
    Simplification, from my time on the Hill, what I saw as the 
challenge, sometimes driven by budget constraints, would be a 
lot of the very detailed rules about who does and does not 
qualify. I know that there are, many times, very good policy 
reasons for drawing the rules as they have been drawn, but 
again, that is something to focus on. When you have very long 
and detailed provisions, that gives a greater opportunity for 
dispute with the IRS, and then those often end up before the 
Court.
    I might add, another thing that I think would be very 
helpful in tax reform is to make sure that, as the committee 
works its will--and I know that you are working through 
hearings--that we have the mark-ups and the legislative history 
so that the Court then has some guidance as to what Congress 
was thinking at the time it wrote the legislation if the 
dispute ultimately comes before the Court.
    The Chairman. That presumes that Congress always was 
actually thinking about something. Kidding aside, there has 
been some very good work done on these issues. Chairman Baucus 
in particular, I think, deserves enormous credit for the policy 
papers that he put out.
    At that time, I was chairman of the Energy Committee, and 
he was very gracious and consulted with us on those, so I think 
your counsel to, to the extent we can, shorten provisions and 
bring greater clarity to them, that avoids some of the 
headaches that stem from the longer provisions that are subject 
to multiple interpretations and are sort of a prescription for 
trouble. So, those are points well-taken.
    Both of you have been very cooperative. We will have 
additional questions, I know, coming to both of you from 
committee members. With that, the Finance Committee is 
adjourned.

    [Whereupon, at 11:25 a.m., the hearing was concluded.]
    
                            A P P E N D I X

              Additional Material Submitted for the Record

                              ----------                              


<GRAPHIC(S) NOT AVAILABLE 

                                 [all]
                                 


</pre></body></html>
